   October 11, 2002




Information
System Security
Security Controls for the Defense
Procurement Payment System
(D-2003-009)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General of the
  Department of Defense Home Page at www.dodig.osd.mil/audit/reports or contact
  the Secondary Reports Distribution Unit of the Audit Followup and Technical
  Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AIS                   Automated Information System
COOP                  Continuity of Operations Plan
DAA                   Designated Approving Authority
DCD                   Defense Finance and Accounting Service Corporate Database
DCII                  Defense Finance and Accounting Service Corporate Information
                         Infrastructure
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Systems Agency
DITSCAP               Defense Information Technology System Certification and
                         Accreditation Process
DPPS                  Defense Procurement Payment System
GISRA                 Government Information Security Reform Act
MOA                   Memorandum of Agreement
PMO                   Program Management Office
SLA                   Service Level Agreement
SSAA                  System Security Authorization Agreement
         Office of the Inspector General of the Department of Defense
Report No. D-2003-009                                                  October 11, 2002
  (Project No. D2002FH-0007)

                        Security Controls for the Defense
                         Procurement Payment System

                                Executive Summary

Who Should Read This Report and Why? Information technology professionals who
are responsible for system development and system changes and prospective users of
systems under development or undergoing major modifications will be most interested in
the progress of the program discussed in this report.

Background. On May 21, 1997, the Under Secretary of Defense (Comptroller)/Chief
Financial Officer directed the move to a paper-free contracting process, which would
modernize the acquisition processes of contract writing, administration, finance, and
auditing. The Defense Finance and Accounting Service initiated the Defense
Procurement Payment System (DPPS) as part of the DoD Paper-Free Contracting
Initiative. This report addresses the system’s compliance with DoD security policy.
DPPS is a component of the information infrastructure architecture and is an Oracle-
based Federal financial system that uses standard, shareable data. DPPS will eliminate
the need for multiple systems that process contract and vendor payments. As of April
2002, the total dollar value expended for system development was $80 million. The life-
cycle costs are estimated to be $550.5 million.

Results. The Defense Finance and Accounting Service did not provide reasonable
assurance that the general security controls for the initial development of DPPS were
adequate. DPPS did not fully implement the requirements to be reviewed under the
Government Information Security Reform Act and if fielded as is would operate without
basic security elements such as proper access controls and a contingency plan. As a
result, existing weaknesses may lead to unauthorized access by potential users that may
result in undetected alteration or misuse. Those weaknesses may also cause DPPS to
negatively impact the Defense Finance and Accounting Service Corporate Information
Infrastructure system interoperability. To improve system security and eradicate existing
weaknesses, the DPPS Program Management Office should:

              •   revise the System Security Authorization Agreement and the
                  memorandum of agreement in accordance with the current directive,

              •   review security documents of the Defense Corporate Database,
       •   test the continuity of operations plan for the system,

       •   develop standard operating procedures for obtaining access to the
           system, and

       •   implement fully the provisions of the DoD guidance to bring the
           system into full compliance with the Government Information Security
           Reform Act.

See the Finding section of the report for details on the audit results and complete
detailed recommendations.

Management Comments and Audit Response. The Defense Finance and
Accounting Service Chief Information Officer concurred with the finding and
recommendations and agreed to implement the requirements necessary to improve
the system security of the Defense Procurement Payment System. Management
comments were partially responsive. We cannot be certain that all requirements
of the Government Information Security Reform Act will be met. Accordingly,
we revised the recommendation to clarify our intent that the Defense Finance and
Accounting Service Chief Information Officer should implement the provisions of
the DoD Information Technology Security Certification and Accreditation
Process. This would ensure that the Defense Procurement Payment System is in
full compliance with the Government Information Security Reform Act. We
request that the Defense Finance and Accounting Service Chief Information
Officer provide comments on the final report by November 29, 2002.




                                     ii
Table of Contents

Executive Summary                                                                i


Background                                                                      1


Objectives                                                                      3


Finding
     Security Controls for the Initial Development of the Defense Procurement
       Payment System                                                            4

Appendixes
     A. Scope and Methodology
          Management Control Program Review                                     15
          Prior Coverage                                                        16
     B. Report Distribution                                                     17

Management Comments
     Defense Finance and Accounting Service                                     19
Background
    Origin of the Defense Procurement Payment System. On May 21, 1997, the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer directed the
    move to a paper-free contracting process, which would modernize the acquisition
    processes of contract writing, administration, finance, and auditing. The Defense
    Finance and Accounting Service (DFAS) initiated the Defense Procurement
    Payment System (DPPS) as part of the DoD Paper-Free Contracting Initiative.
    The mission need for DPPS was derived from the DFAS Strategic Business Plan
    and Chief Financial Officer 5 Year Plan to improve systems’ capabilities and
    business processes for finance and accounting. The vision for DPPS is to
    modernize business processes and define standard and shareable data for contract
    and vendor payments. DPPS should alleviate the need for multiple systems
    currently used for contract and vendor payments. Through DPPS, contract and
    vendor payments will be integrated into a standardized on-line computer-
    processing environment. DPPS will merge both functional areas to operate from
    common data rather than duplicated or unmatched data records residing in various
    databases and in hard copy form.

    In April 1995, DFAS initiated the DPPS program. In September 1996, DFAS
    decided to purchase a commercial off-the-shelf package for DPPS instead of
    developing the DPPS software. In June 1998, DFAS decided to purchase an
    Oracle-based project. The commercial off-the-shelf award was $24 million, and
    the commercial off-the-shelf package was $5.7 million. As of April 2002, the
    total dollar value expended including salaries was $80 million. DFAS expended
    $51 million of the total dollar value on Oracle obligations. The estimated
    life-cycle costs are $550.5 million. Currently, DPPS is under Milestone 2
    approval and is expected to reach Milestone 3 approval by September 2003.

    Interfacing Systems and Procurement Process. Figure 1 shows how data will
    be processed through DPPS. DPPS will directly or indirectly interface with the
    following systems through the DFAS Corporate Information Infrastructure
    (DCII): DFAS Corporate Database (DCD), Defense Standard Disbursing System,
    Standard Procurement System, and Wide Area Workflow.

    DPPS is one of many systems that encompass the DCII environment. DCII is an
    enterprise architecture that modernizes and integrates the financial operations
    using DoD-wide standard software initiatives that operate on a standard
    infrastructure. DCD will serve as the main hub to process data received from all
    systems. The function of DCD is to consolidate data from several systems into
    one standard manner. DPPS is an Oracle-based Federal financial system that uses
    standard, shareable data and the most recent advances in e-commerce.




                                        1
 Figure 1. DPPS Processing Flow


DPPS has been modified to function in the DFAS environment and will become
the standard entitlement system. DPPS will eventually replace the entitlement
function for a number of systems to include the:

       •   Automated Voucher Examination and Disbursing System,

       •   Computerized Accounts Payable System,

       •   Defense Integrated Subsistence Management System,

       •   Integrated Accounts Payable System,

       •   Mechanization of Contract Administration Services,

       •   Standard Automated Material Management System,

       •   Standard Automated Voucher Examination System, and

       •   Standard Accounting and Reporting System.

Once functional, DPPS will receive contract, receipt, invoice, and funding data
authorization from DCD. DPPS will also send data to DCD.




                                    2
Objectives
    The overall objective was to evaluate the adequacy of the DPPS security controls.
    The audit included a review of general controls. We also reviewed the adequacy
    of the management control program as it related to the overall audit objective.
    See Appendix A for details on the scope and methodology, management control
    program, and prior audit coverage.




                                        3
           Security Controls for the Initial
           Development of the Defense Procurement
           Payment System
           DFAS did not provide reasonable assurance that the general security
           controls for the initial development of DPPS were adequate. This
           occurred because in its initial development of DPPS, DFAS did not
           properly implement the first two phases of the DoD security guidance for
           system security and accreditation. Specifically, DFAS did not address the
           minimum-security requirements in the System Security Authorization
           Agreement (SSAA) to include the weaknesses identified in the DCD
           system. In addition, critical documents required in the SSAA; such as the
           continuity of operations plan (COOP), the memorandum of agreement
           (MOA), the service level agreement (SLA), and the roles and
           responsibilities of users; did not contain the information needed to ensure
           the security of DPPS. DPPS did not fully implement the requirements to
           be reviewed under the Government Information Security Reform Act (the
           Act) and, if fielded as is, would operate without basic security elements
           such as proper access controls and a contingency plan. As a result, data
           integrity may be compromised because of system availability,
           unauthorized access, undetected alteration, or general misuse. Although
           DFAS may correct all shortfalls prior to the deployment of DPPS, the time
           needed to make the system changes necessary to properly secure DPPS
           may negatively impact interoperability of the DCII system.


Security Guidance
    General Provisions of the Government Information Security Reform Act.
    The October 30, 2000, Floyd D. Spence National Defense Authorization Act of
    FY 2001 (Public Law 106-398), includes title X, subtitle G, “Government
    Information Security Reform Act,” (GISRA). The GISRA states that each
    Federal agency is responsible for:

           •   implementing a security program that ensures the integrity,
               confidentiality, authenticity, availability, and nonrepudiation of
               information systems supporting agency operations;

           •   ensuring that the information security plan is followed throughout the
               life cycle of the system; and

           •   developing, implementing, and evaluating information security
               policies and control techniques.

    Office of Management and Budget Guidance. Office of Management and
    Budget (OMB) Circular A-130, Appendix III, “Security of Federal Automated
    Information Resources,” November 30, 2000, establishes a minimum set of
    controls to be included in the Federal automated information security program.
    The Office of Management and Budget guidance also assigns responsibility for


                                         4
security, security planning, periodic review of security controls and links, agency
automated information security programs, and agency management control
systems. In addition, the guidance should ensure that risk and potential for loss
are understood and minimized.

DoD Directive 5200.28. DoD Directive 5200.28, “Security Requirements for
Automated Information Systems (AIS),” March 21, 1988, states that the security
policy must be considered throughout the entire life of the AIS from the
beginning of concept development, through design, development, operation, and
maintenance until replacement or disposal. A Designated Approving Authority
(DAA) shall be designated as responsible for the overall security of the AIS to
include approval of accreditation. The AIS developer must ensure early and
continuous involvement of the users, information system security officers, data
owners, and DAA(s) in defining and implementing security requirements of the
AIS. The AIS developer should also develop an evaluation plan for the AIS
showing progress toward meeting full compliance with stated security
requirements through the use of necessary computer security safeguards. DoD
Directive 5200.28 also states that an MOA should be implemented when one DoD
Component AIS interfaces with another DoD Component AIS. The MOA should
include a description and classification of the data, clearance levels of the users,
designation of the DAA who should resolve conflicts among each DAA, and
safeguards to be implemented before interfacing each AIS. DoD
Directive 5200.28 is necessary to protect the DoD investment in obtaining and
using information and to prevent fraud, waste, and abuse.

DoD Information Technology System Certification and Accreditation
Process Instruction. DoD Instruction 5200.40, “DoD Information Technology
Security Certification and Accreditation Process (DITSCAP),” December 30,
1997, defines four phases that lead to the system security and accreditation
process. Phase 1 requires the establishment of an SSAA among each DAA,
Certification Authority, system user representatives, and the program manager.
The SSAA documents agreements among the parties relating to system mission,
environment, architecture, threats, levels of effort, and security requirements for
certification and accreditation. Phase 2 activities verify the evolving systems
compliance with the requirements agreed on in the SSAA. Phase 3 activities
validate that the preceding work has produced an information system that operates
in a specified computing environment with an acceptable level of residual risk.
Phase 4, the Post Accreditation phase, contains activities necessary to monitor
system management and operation to ensure an acceptable level of residual risk is
preserved.

DoD Manual 8510.1-M, “DoD Information Technology Security Certification
and Accreditation Process (DITSCAP) Application Manual.” DoD
Manual 8510.1-M, “DoD Information Technology Security Certification and
Accreditation Process Application Manual,” July 31, 2000, is issued under the
authority of DoD Instruction 5200.40, “DoD Information Technology Security
Certification and Accreditation Process (DITSCAP),” December 30, 1997. It
provides implementation guidance to standardize the certification and
accreditation process throughout DoD.




                                     5
    DFAS System Security Guidance. DFAS Regulation 8000.1-R, “DFAS
    Information Assurance Policy,” as revised, November 1, 2001 (the Regulation),
    implements the information assurance policies stated in Circular No. A-130. The
    Regulation provides the structure for carrying out security policies,
    responsibilities, and procedures for DFAS systems security personnel, which all
    DFAS sites and programs are required to follow. The Regulation also establishes
    the DFAS Chief Information Officer as the DAA for all DFAS networks and
    information systems.

    After reviewing guidance regarding security controls over automated information
    systems, we found problems with the adequacy of the SSAA developed for DPPS.
    Specifically, DFAS did not address the minimum-security requirements outlined
    in DoD guidance. The minimum-security requirements that were not addressed in
    the SSAA involve risk management, contingency planning, data integrity,
    accountability and access controls, and least privilege. Security requirements
    should be followed so that only authorized persons can access information and the
    information is used for its intended purpose. Security requirements should also
    ensure that information retains its content integrity and is available when needed.


Security Controls Over DPPS
    Adequacy of DPPS System Security Authorization Agreement. DoD
    Directive 5200.28 states that the DAA is responsible for the overall security of
    DPPS. The DAA for DPPS is the Chief Information Officer for DFAS. DFAS
    develops the DPPS and is responsible for ensuring that the security requirements
    for its input, access, and use are adequate. However, the DAA did not provide
    reasonable assurance that the security controls for the initial development of
    DPPS were adequate. The DPPS SSAA is a documented agreement of the
    certification process that is developed by the Program Management Office
    (PMO). The SSAA required for review by the DAA for certification and
    accreditation did not adequately address the minimum-security safeguards
    outlined in DoD Directive 5200.28. Specifically, the SSAA is non-compliant
    with several major requirements of the DITSCAP. The SSAA did not give a
    detailed description of the threats that DPPS faces. The DPPS COOP, a part of
    the SSAA, did not adequately implement service continuity controls to ensure that
    critical and sensitive data will be protected, and that essential operations would
    continue in an emergency. The MOA between DPPS and DCD was not complete.
    The SLA between DFAS and the Defense Information Security Agency (DISA)
    was also not complete. As of March 2002, the roles and responsibilities for DPPS
    had not been assigned or tested. The following table provides a list of the specific
    security requirements for DPPS. The SSAA was generic and did not adequately
    document the specific requirements of DPPS.




                                         6
                      Mandatory DPPS Certification and
                        Accreditation Requirements

     Specific Security Requirements for DPPS                  Adequate
     Specific contingency plan for DPPS                          No
     Specific risk assessment for DPPS                           No
     Specific network and physical security                     Yes
     Specific accreditation survey for DPPS                      No
     Specific configuration management program                  No
     Specific security program for DPPS                         Yes
     Specific memorandum of agreement                           No
     Specific Service Level Agreement                            No
     Specific Certification Analysis                            Yes
     Specific Roles and Responsibilities for DPPS                No


       DPPS Vulnerabilities. As part of the DCII, DPPS will receive data from
multiple sources via the DCD interface. The DCD is the central component in the
DoD end-to-end procurement process. Once the disbursing functionality is
deployed, the DCD will provide a single, logical database in which all shared
DFAS financial data will be stored and maintained for on-line transaction
processing. The DCD, as well as the DPPS, is part of the target-automated
environment along with other systems. Those systems will share data using the
DCD. DFAS officials stated that if the DCD experienced a failure, DPPS would
not have the necessary data to operate.

Inspector General DoD Report No. D-2002-067, “Security Controls Over the
Defense Finance and Accounting Service Corporate Database,” March 20, 2002,
addresses security issues found during a review of security controls of the DCD.
In the report, several weaknesses were found in the execution of DCD security
controls. Specifically, the report stated that access controls were weak, a training
program for users was not provided, and the COOP had been in draft since 1999.
In addition, the COOP had not been tested at the time the report was issued. Prior
to fielding the DCD, neither a system security review nor penetration testing were
requested. Figure 2 illustrates the procurement process in the DCII environment.




                                     7
Figure 2. DFAS Corporate Database Interfaces

The DPPS PMO was not aware of the inadequate security safeguards in the DCD.
The PMO requested and received a copy of the Inspector General DoD Report
No. D-2002-067 that discussed the security controls weaknesses in the DCD. The
PMO found that the problems in the DCD would be relevant to DPPS. As of
April 2002, the weaknesses identified in the DCD had not been included in the
DPPS SSAA. The threats discussed in the DPPS SSAA were general to the DCII
environment. The SSAA did not include the security plans for the other
applications in the DCII environment.

During Phase 2 of the DITSCAP process, certification tasks and a vulnerability
assessment are to be performed. For DPPS, the vulnerability assessment task
noted the following weaknesses.

     •   The current version of the application may not provide for recommended
         encryption levels.

     •   The application does not enforce “strong” passwords, which could lead
         to hacking incidents and loss of data integrity.




                                    8
     •   The audit fields may not properly capture the data necessary to verify
         transactions.

     •   The data may not be extractable for audit.

To achieve accountability and prevent fraudulent transactions from occurring, the
weaknesses must be corrected. The PMO may recommend that the certification
process continue while monitoring the mitigation of the vulnerabilities. The
length of time needed to correct the vulnerabilities may slow the process, which
leaves the security of DPPS in question. Additionally, some of the vulnerabilities
were rated serious enough to recommend that the system not be deployed until
they are corrected.

        DPPS Continuity of Operations Plan. A COOP is required as part of the
documentation developed during the certification and accreditation process. The
objective of the COOP is to provide reasonable continuity of automated
information systems support if events occur that prevent normal operations. Each
COOP should be tested periodically under realistic conditions. The requirements
of DoD Instruction 5200.40 state that the COOP should be prepared during
Phase 1 of the certification and accreditation process. DoD Instruction 5200.40
further states that the COOP should be evaluated for feasibility during Phase 2
and again during Phase 3 to ensure consistency with the requirements set forth by
the SSAA. According to the SSAA, Phase 2 of the certification and accreditation
process had occurred during December 2001. During Phase 2, DFAS officials did
not have a COOP for DPPS in place. Documentation of a COOP was not
received until January 2002, but was dated June 2002, which, according to DFAS
officials, will be the end of Phase 3. Although the COOP states that it will be
tested and that test plans will be developed, no dates are included stating when the
testing will occur. Furthermore, the plan does not contain the information
necessary for testing, such as a Business Line COOP and a completed point of
contact list in case of an emergency.

The Business Line COOP should encompass essential day-to-day operations of
the user representative. Specifically, the Business Line COOP should identify
step-by-step business functions necessary to ensure that contractor and vendor
payments will be made despite the non-availability of DPPS. The lack of a
Business Line COOP places a scope limitation on the DPPS COOP developed by
the PMO. Without a Business Line COOP, DFAS cannot ensure that contractor
and vendor payments will continue if DPPS becomes unavailable.

The DPPS COOP lacked a completed point of contact list. Specifically, officials
with the authority to declare an emergency and implement the DPPS COOP were
not identified. Further, the names of the officials to be contacted during the
declaration of an emergency were not identified. The DPPS COOP contains just
enough information to be considered adequate for Phase 1 of the certification and
accreditation process but not for Phase 3 of DPPS. The lack of essential
information limits the ability of the COOP to be tested for adequacy and its
compliance with security requirements established in the SSAA.




                                     9
        DPPS/DCD Memorandum of Agreement. DoD Directive 5200.28
states that when an AIS is managed by a different DAA, or are interfaced or
networked, an MOA is required to address the accreditation requirements for each
AIS involved. The MOA should include description and classification of the data,
clearance levels of the users, designation of the DAA who shall resolve conflicts
among the DAAs, and safeguards to be implemented before interfacing each AIS.
The MOA is established to ensure that an accurate and timely transfer occurs
between two systems. An MOA is required any time that two DoD Component
AISs interface with one another. An MOA is also required when a contractor AIS
interfaces with either a DoD Component or to another contractor AIS.

The DPPS/DCD MOA does not adequately meet the requirements of DoD
Directive 5200.28. The MOA states that Oracle Advanced Symmetrical
Replication will facilitate the movement of data between DPPS and DCD. The
MOA adequately describes how data will transfer between the systems and
interfaces; however, it does not discuss the clearance levels of the users. Each
clearance level for every system and its user should be clearly documented as a
safeguard to prevent unauthorized access to both the DPPS and the DCD. In
addition, the MOA does not clearly assign a DAA. The responsibility of the DAA
includes resolving conflicts with each DAA of the respective systems.

        DPPS Roles and Responsibilities. According to the DITSCAP, all
certification team’s roles and responsibilities are to be identified for the
certification process and defined prior to end-to-end testing. A Role Assignment
Matrix is being developed to include both the functional and administrative roles
for the DPPS release. The matrix will also include job descriptions for DPPS, as
well as clearance levels required for those positions. End-to-end testing for DPPS
was scheduled to begin in March 2002. However, DFAS had not finalized the
roles and responsibilities for DPPS.

Unless the roles and responsibilities are finalized, the Security Test and
Evaluation cannot adequately test the roles and responsibilities for DPPS. The
Security Test and Evaluation involves the testing of the setting up and managing
of user profiles. Furthermore, without the establishment of the roles and
responsibilities, access control issues cannot be achieved. Specifically, the roles
and responsibilities are the development of a master access control list and
coordination with DISA on user identification.

        DPPS Service Level Agreement. DFAS is using the SLA as a guideline
to meet DPPS security requirements. The SLA documents the agreement reached
between DISA and DFAS. The agreement will provide information technology
data processing support and customer support in the performance of a variety of
information technology services, and DFAS. The SLA has three separate but
interrelated parts, a basic agreement, a support agreement, and a planning
estimate.

               Basic Agreement. The basic agreement identifies terms,
conditions, and responsibilities and incorporates standard information that applies
to all DISA customers. It outlines administrative responsibilities, customer
assistance, continuity of operations, and overall security. The basic agreement
should have all the essential elements of a complete agreement and describe the


                                     10
overall responsibilities of both parties. The basic agreement will also serve as the
basic reference document for the support agreement between provider and
customer.

               Support Agreement. The support agreement documents the
customer’s requirements and the provider’s technical solutions. The support
agreement may also document any additions or modifications to the terms and
conditions or roles and responsibilities covered in the basic agreement. Once
signed, the agreement will remain in effect until jointly modified by the customer
and provider or until terminated by either party.

              Planning Estimate. The planning estimate classifies all projected
workload costs for services provided by DISA. The cost estimates will be based
on the most current workload projections provided by the customer.

The SLA between the DPPS PMO and DISA did not contain all of the necessary
security information. The basic agreement outlines the responsibilities for DFAS
and DISA pertaining to access controls. The SLA states that DFAS is responsible
for maintaining access control for users of their applications. In addition, the
SLA states that DISA will maintain access control based on required personnel
security investigations, need-to-know, and authorization. However, the SLA does
not outline the necessary procedures that either organization will follow to
maintain access control. The SLA should explain the process for granting,
generating, and maintaining access to DPPS. Otherwise, the intended users of
DPPS could implement inconsistent access control procedures.

Compliance with the General Provisions of Government Information
Security Reform Act. The Government Information Security Reform Act (the
Act) directs each Federal agency to evaluate its information security program and
practices annually and, as part of the budget process, submit the results to the
Office of Management and Budget. The Act covers unclassified and national
security systems to create a consistent security management framework for each
system. The Act establishes parallel requirements for the agency and the agency
Inspector General. The Act requires the Office of the Inspector General to
evaluate the DoD information security program and practices and to
independently select and test a subset of systems to confirm the effectiveness of
the information security program. Although DPPS is not part of the subset of
systems, DPPS compliance with the Act is still required.

DPPS is currently under Milestone 2 approval and is expected to reach Milestone
3 approval by September 2003. As a result, DPPS did not fully implement the
requirements to be reviewed under the Act. For example, the PMO should report
any material weaknesses in policies and procedures and system design and
implementation.




                                     11
    Specifically, in order to comply with the Act, the PMO should:

           •   assess any risk to operations and assets,

           •   determine the level of security appropriate to protect the operations
               and assets, and

           •   develop and maintain an up-to-date security plan for DPPS.

    If fielded as is, DPPS would operate without basic security elements to include
    proper access controls and a contingency plan. Before DPPS is fielded, the PMO
    should also ensure that employees are sufficiently trained in their security
    responsibilities and that procedures are established for reporting security
    incidents. If the PMO takes full advantage of this opportunity to ensure
    compliance with the Act, both the users of DPPS as well as the PMO will have a
    solid basis for stating that DPPS is ready for certification and accreditation.


Impact of DPPS on the DCII Environment
    Delays in the development of DPPS have impacted the deployment of the DCII
    architecture. According to documentation provided by DFAS officials, DPPS was
    originally expected to take over the duties of the Mechanization of Contract
    Administration Services in February of 2000. However, delays in the
    development of the system have pushed back the “brownout of the Mechanization
    of Contract Administration Services” until the second quarter of FY 2003. More
    recent delays have been caused as well. Enterprise testing; which involves
    validating architecture for release build, data migration, and system security; was
    delayed because application testing of DPPS was not completed. Those tests
    uncovered defects and additional requirements for DPPS. If DPPS is not properly
    secured, DFAS may not be able to provide a secure end-to-end procurement
    process. Without adequate safeguards, the confidentiality and integrity of the
    information processed, stored, and transmitted, as well as the availability of the
    system or the information itself could be threatened, thus, risking the security of
    both the data in DPPS and the data transferable to the DCD.


Conclusion
    DPPS is critical to the DFAS mission because when it is fully deployed, it will
    become the standard entitlement system, replacing several systems currently in
    use. As part of the DCII architecture, DPPS will receive and transfer data through
    the DCD from multiple sources. Because data are transferred to and from DPPS,
    any failure of DPPS would affect those interfacing systems. Therefore, it is
    important that DPPS has adequate security controls in place. DPPS will have
    thousands of users throughout the world. DFAS personnel will rely on DPPS to
    carry out their mission by providing access to financial applications and databases




                                        12
    and other information resources found in the DCD. In addition, without a
    properly tested COOP in place, there is no assurance that DPPS would continue to
    function in an emergency.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendation 6 to clarify the actions necessary to bring the Defense
    Procurement Payment System into full compliance with the requirements of the
    Government Information Security Reform Act.

    We recommend that the Defense Finance and Accounting Service Chief
    Information Officer direct the Defense Procurement Payment System
    Program Management Office to:

          1. Revise the System Security Authorization Agreement for Defense
    Procurement Payment System to comply with DoD Directive 5200.28.

    Management Comments. The Defense Finance and Accounting Service Chief
    Information Officer concurred and agreed to update the System Security
    Authorization Agreement and address security requirements from the DoD
    Directive 5200.28.

           2. Review the security documentation such as test results and audit
    reports related to the Defense Finance and Accounting Service Corporate
    Database security.

    Management Comments. The Defense Finance and Accounting Service Chief
    Information Officer concurred and will review the Defense Finance and
    Accounting Service Corporate Database security documentation.

          3. Revise, finalize, and test the Defense Procurement Payment System
    Continuity of Operations Plan.

    Management Comments. The Defense Finance and Accounting Service Chief
    Information Officer concurred and stated that the Continuity of Operations Plan
    for the Defense Procurement Payment System will be incorporated with the
    Defense Finance and Accounting Service Corporate Information Infrastructure
    plan and will be part of a tabletop exercise scheduled for September 2002.

          4. Revise the Defense Procurement Payment System memorandum of
    agreement to comply with DoD Directive 5200.28.

    Management Comments. The Defense Finance and Accounting Service Chief
    Information Officer concurred and agreed to update the memorandum of
    agreement to clarify the Designated Approving Authority responsibilities and any
    security clearance levels in their roles using both systems.



                                       13
      5. Develop a standard operating procedure for obtaining access to the
Defense Procurement Payment System.

Management Comments. The Defense Finance and Accounting Service Chief
Information Officer concurred and stated that the Defense Finance and
Accounting Service Corporate Information Infrastructure access control standard
operating procedures have been written to combine the Defense Corporate
Database, the Defense Corporate Warehouse, and the Defense Procurement
Payment System. The procedures are currently awaiting final approval. These
standard operating procedures define the least privilege concept and roles and
responsibilities.

       6. Implement fully the provisions of the DoD Information Technology
Security Certification and Accreditation Process to bring the Defense
Procurement Payment System into full compliance with the requirements of
the Government Information Security Reform Act.

Management Comments. The Defense Finance and Accounting Service Chief
Information Officer concurred with the recommendation and stated that the
Defense Procurement Payment System complied with the Government
Information Security Reform Act by providing the Defense Finance and
Accounting Service management with all requested information needed to fulfill
the requirements. The Fiscal Year 2003 Budget Estimate also contains the
required information.

Audit Response. Management comments were partially responsive. Although
the Defense Finance and Accounting Service Chief Information Officer provided
the Defense Finance and Accounting Service management all information
requested, we can not be certain that all requirements of the Government
Information Security Reform Act will be met. As a result, we revised the
recommendation to clarify our intent that the Defense Finance and Accounting
Service Chief Information Officer should implement the provisions of the DoD
Information Technology Security Certification and Accreditation Process to bring
the system in full compliance with the requirements of the Government
Information Security Reform Act. We request that the Defense Finance and
Accounting Service Chief Information Officer provide comments on the final
report.




                                   14
Appendix A. Scope and Methodology
    We performed this financial-related audit at the DPPS PMO at DFAS Columbus,
    Ohio, from October 2001 through May 2002. Our review was based on
    applicable Federal and DoD information security guidance and regulations. We
    used the DITSCAP criteria for evaluating the SSAA for DPPS. We reviewed the
    process in which DFAS intends to implement its security program, access
    controls, and service continuity for DPPS. We interviewed the DAA for DPPS,
    project director for the DCII, project manager for DPPS, and the user
    representatives. We interviewed the DPPS Information System Security Officer
    to determine how they plan to implement security over DPPS.

    We reviewed the DPPS SSAA of August 2001 and supporting documentation.
    We also analyzed the SLA between DFAS and DISA. We reviewed the MOA
    between DPPS and DCD, dated December 30, 2001. The DPPS COOP that we
    reviewed was post dated June 2002. We reviewed relevant regulations and laws
    including Public Law 100-235, “Computer Security Act of 1987,” and the
    requirements of the Government Information Security Reform Act, title X,
    subtitle G, of the FY 2001 Floyd D. Spence National Defense Authorization Act
    (Public Law 106-398). Additionally, we reviewed DoD Directive 5200.28,
    “Security Requirements for Automated Information Systems,” March 21, 1988;
    DoD Instruction 5200.40, “DoD Information Technology Security Certification
    and Accreditation Process (DITSCAP),” December 30, 1997; DoD 8510.1-M,
    “DoD Information Technology Security Certification and Accreditation Process
    (DITSCAP) Application Manual,” July 31, 2000; and DFAS Regulation
    8000.1-R, “DFAS Information Assurance Policy,” as revised, November 1, 2001.

    We performed this audit from October 2001 through July 2002, in accordance
    with generally accepted government auditing standards. Accordingly, we
    included tests of management controls considered necessary.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Security and the DoD Financial Management high-risk areas.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of controls that provides reasonable assurance that programs are operating
    as intended and to evaluate the adequacy of the controls.




                                        15
     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of management controls for the initial development of DPPS.
     Specifically, we reviewed the FY 2001 DFAS Annual Statement of Assurance
     and the FY 2001 Contract Pay and Vendor Pay Services Annual Statement of
     Assurance for DFAS Columbus.

     Adequacy of Management Controls. We identified material management
     control weaknesses for DFAS as identified in DoD Instruction 5010.40. DFAS
     did not provide reasonable assurance that the general security controls for the
     initial development of DPPS were adequate. The recommendations in this report,
     if implemented, will improve the security controls over DPPS. A copy of the
     report will be provided to the senior official responsible for management controls
     at DFAS Headquarters.

     Adequacy of Management’s Self-Evaluation. We reviewed the adequacy of
     management’s self-evaluation. DFAS officials did not identify DPPS as an
     assessable unit; therefore, did not identify or report the material management
     control weakness identified by the audit.


Prior Coverage

General Accounting Office
     GAO-01-525, “Information Technology: Architecture Needed to Guide
     Modernization of DoD’s Financial Operations,” May 17, 2001.

     GAO-01-307, “Information Security: Progress and Challenges to an Effective
     Defense-wide Information Assurance Program,” March 30, 2001.

Inspector General of the Department of Defense (IG DoD)
     IG DoD, Report No. D-2002-067, “Security Controls Over the Defense Finance
     and Accounting Service Corporate Database,” March 20, 2002.

     IG DoD, Report No. D-2001-095, “Controls for the Electronic Data Interchange
     at the Defense Finance and Accounting Service Columbus,” April 6, 2001.

     IG DoD, Report No. D-2001-030, “Oversight of the Defense Finance and
     Accounting Service Corporate Database Development,” December 28, 2000.

     IG DoD, Report No. 98-007, “General and Application Controls Over the
     Mechanization of Contract Administration Services System,” October 9, 1997.




                                         16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Defense Finance and Accounting Service Columbus




                                          17
Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          18
Defense Finance and Accounting Service
Comments




                      19
Final Report
 Reference




Revised
Page 14




               20
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to the
report are listed below.

       Paul J. Granetto
       Richard B. Bird
       David F. Vincent
       Barbara A. Sauls
       Yolanda C. Watts
       Randall M. Critchlow
       Yalonda N. Blizzard
       Leon D. Bryant
       Ann Thompson
